V

No. 193Jn®[)E
Supreme Court of

fHnttelj States

ANDRZEJ MADURA
ANNA DOLINSKA-MADURA
Petitioners
v.
BANK OF AMERICA N.A. FKA
BAC HOME LOAN SERVICING, LP., ET AL„
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
PROOF OF SERVICE
I declare that on this date 13th of August of 2019, as requested by Supreme Court
Rule 29.5 and Rule 29(c), I have served the enclosed PETITION FOR A WRT OF
CERTIORARI on the counsel of each party to the above proceedings Bank of
America NA, by merger: F/K/A BAC Home Loan Servicing L.P., and on every other
person required to be serve, be depositing an envelope containing the above
documents in the United States Postal envelope properly addressed to the counsel
of each parties and with the US Postal Mater first-class postage prepaid. The names
and addresses of this counsel is as follows: Nancy M. Wallace Esquire, Akerman
LLP 100 East College Avenue, Suite 1200, Tallahassee, Florida 32301.
I declare under penalty of perjury that the foregoing is true and correct.
Executed nil August 13th, 2019 by:

Andrzej Madura, Pro Se
6320 14 Street West Lot 11
Bradenton Florida 34207
Ph. No.: (941) 264-4709

